<html>
<title> - DEPARTMENT OF THE INTERIOR AND RELATED AGENCIES APPROPRIATIONS FOR FISCAL YEAR 2007</title>
<body><pre>[Senate Hearing 109-]
[From the U.S. Government Printing Office]



 
  DEPARTMENT OF THE INTERIOR AND RELATED AGENCIES APPROPRIATIONS FOR 
                            FISCAL YEAR 2007

                              ----------                              


                        THURSDAY, APRIL 6, 2006

                                       U.S. Senate,
           Subcommittee of the Committee on Appropriations,
                                                    Washington, DC.
    The subcommittee met at 9:30 a.m., in room SD-124, Dirksen 
Senate Office Building, Hon. Conrad Burns (chairman) presiding.
    Present: Senators Burns, Domenici, Craig, Allard, and 
Dorgan.

                    ENVIRONMENTAL PROTECTION AGENCY

STATEMENT OF STEPHEN L. JOHNSON, ADMINISTRATOR
ACCOMPANIED BY:
        MARCUS PEACOCK, DEPUTY ADMINISTRATOR
        LYONS GRAY, CHIEF FINANCIAL OFFICER
        MICHAEL W. S. RYAN, DEPUTY CHIEF FINANCIAL OFFICER
        DAVID A. BLOOM, DIRECTOR, OFFICE OF BUDGET
        ANN R. KLEE, GENERAL COUNSEL, OFFICE OF GENERAL COUNSEL
        BILL RODERICK, ACTING INSPECTOR GENERAL, OFFICE OF INSPECTOR 
            GENERAL
        WILLIAM WEHRUM, ACTING ASSISTANT ADMINISTRATOR, OFFICE OF AIR 
            AND RADIATION
        GEORGE GRAY, ASSISTANT ADMINISTRATOR, OFFICE OF RESEARCH AND 
            DEVELOPMENT
        BENJAMIN GRUMBLES, ASSISTANT ADMINISTRATOR, OFFICE OF WATER
        GRANTA NAKAYAMA, ASSISTANT ADMINISTRATOR, OFFICE OF ENFORCEMENT 
            AND COMPLIANCE ASSURANCE
        SUSAN HAZEN, ACTING ASSISTANT ADMINISTRATOR, OFFICE OF 
            PREVENTION, PESTICIDES AND TOXIC SUBSTANCES
        SUSAN BODINE, ASSISTANT ADMINISTRATOR, OFFICE OF SOLID WASTE 
            AND EMERGENCY RESPONSE
        LUIS LUNA, ASSISTANT ADMINISTRATOR, OFFICE OF ADMINISTRATION 
            AND RESOURCES MANAGEMENT
        LINDA TRAVERS, ACTING ASSISTANT ADMINISTRATOR, OFFICE OF 
            ENVIRONMENTAL INFORMATION

               OPENING STATEMENT OF SENATOR CONRAD BURNS

    Senator Burns. We'll call the committee to order. Sorry--
well, I guess we're about on time. Murphy's Law took over this 
morning. You know, the old law of anything that can go wrong, 
will. It did. Then I got to looking this over, Mr. Director, 
and I'm going to make this flowery statement here that's been 
written by a very able person. Of course, I can't read, and 
that doesn't help things, but, nonetheless, I was just going to 
tell you, gather everything you've got up, go back downtown, 
and rework it, and come on back when you're ready.
    Mr. Johnson. We're ready, sir.
    Senator Burns. All right. Well, good morning, and thank you 
very much for coming this morning.
    We will hear the budget on the Environmental Protection 
Agency. I'd like to welcome our good friend, Steve Johnson, the 
administrator down there, who's with us, and it's a pleasure to 
have you and--as we make this discussion and try to come up 
with some--a meeting of the minds, as far as EPA is concerned.
    Let me begin by saying, EPA has one of the most important 
and difficult missions of all the Federal agencies. There's no 
question about that. You're torn in 65 different directions. 
How you keep it all together is--takes a man of great talent, 
and I think you are a man of great talent. The jurisdiction 
ranges from the responsibility of the cleanup of Superfund 
sites, such as the Libby asbestos site in Montana, to funding 
clean water and drinking infrastructure programs, to the 
enforcement of a long list of environmental laws.

                             BUDGET REQUEST

    The administration has requested $7.3 billion in a total 
budget authority for fiscal 2007. This is $310 million below 
fiscal year 2006. That's a 4-percent reduction. That sort of 
concerns a lot of us on this committee. While the EPA has only 
been under the jurisdiction of this committee for the past 
year, the enormity of the clean water and drinking water 
infrastructure needs across this country has continually been 
impressed upon me. The administration has requested funding, 
$842 million, for the Drinking Water SRF, but it has 
recommended a large reduction in funding the Clean Water State 
Revolving Loan Fund. The administration is requesting $688 
million for the Clean Water SRF, which is $199 million below 
the fiscal year of 2006. In the Clean Water, the $688 million 
is just not enough. Clean Water and Drinking Water 
Infrastructure Gap Analysis published in 2002 indicates we 
still have a substantial gap in funding, which could help 
develop the country's clean water and drinking water systems to 
maintain the spending levels--or the current spending levels, I 
should say. The Gap Analysis estimates the United States will 
need to spend $540 billion for both clean water and drinking 
water capital needs in the next 20 years. I'm not certain yet 
what our subcommittee allocation will allow us to do, but I 
intend to try to fund by the State Revolving Loan Funds at the 
highest level.
    Despite the 4-percent reduction in the President's budget 
request, EPA has a few programs receiving substantial 
increases. The budget includes the following notable increase, 
$50 million for Diesel Emissions Reduction Grant Program. I can 
do that in one single swoop. If you'll just let me turn all 
that coal into diesel, I can take care of all that.
    And $20 million--and do it with private money. Now, that 
ain't a bad deal. I think that's kind of the way America 
works--$20 million above the enacted level for the Great Lakes 
Geographic Program and $55 million above the enacted level for 
homeland security initiatives at the Agency.
    But we also face significant challenges in cleaning up the 
1,238 active Superfund sites--1,238 Superfund sites on the 
National Priorities List, and 62 sites proposed to make the 
NPL. The administration is requesting $1.259 billion for 
Superfund Programs, which is $17 million above fiscal year 
2006.
    Now, there's no question that the Superfund Program could 
use increased funding to clean up sites currently on the NPL 
and those waiting to make the list. Libby asbestos site, in 
Montana, was added to the National Priorities List in 2002. The 
folks in Libby have suffered greatly, and I would like nothing 
more than to see this site cleaned up as soon as possible. 
That's why I included it in the language of last year's bill 
directing the EPA to issue a Record of Decision for Libby no 
later than May the 1st of this year. I understand that there is 
some discomfort at the Agency about moving forward with the 
final ROD for Libby, but I want the ROD issued swiftly, because 
folks in Libby deserve to know both the timeline and the 
details of the cleanup process, and I do not want the quality 
of the ROD to suffer. Most importantly, Mr. Administrator, I 
would like your word that the community will be involved in the 
greatest extent possible as that process moves forward.
    Now, there's many issues that I could raise at this point, 
ranging from the proposed funding increase for homeland 
security initiatives to the newly configured Diesel Emissions 
Reduction Grant Program, but I'll save my comments for the 
question part of the round of this hearing.
    So, again, I want to thank you for coming this morning. We 
appreciate your hard work down there, understanding it's 
probably one of the toughest jobs in this 17 square miles of 
logic-free environment in which we have to do business.
    So, I will--I don't have any colleagues to turn to.
    So, I'll turn to the administrator. Mr. Johnson, thank you, 
this morning, very much, and we'll look forward to your 
testimony.

              SUMMARY STATEMENT OF HON. STEPHEN L. JOHNSON

    Mr. Johnson. Well, thanks, I appreciate being here. Mr. 
Chairman and members of the committee, I am pleased to be here 
to discuss the President's fiscal year 2007 budget request for 
the Environmental Protection Agency.
    The President's budget reflects his continued commitment to 
providing the critical resources needed for our Nation's 
highest priorities: fighting the war on terror, strengthening 
our homeland defenses, and sustaining the momentum of our 
economic recovery. The President's pro-growth economic 
policies, coupled with spending restraint, will keep the 
Government on track to cut the deficit by more than half by the 
year 2009.
    EPA is responsible for being a good steward of our 
environment and a good steward of our tax dollars. In keeping 
with the need for spending restraint, the President has 
included $7.3 billion to support the work of EPA and our 
partners nationwide in his budget.
    This budget fulfills every presidential environmental 
commitment and maintains the goals laid out in EPA's strategic 
plan, while spending less. When I accepted the position of EPA 
administrator, President Bush charged me with accelerating the 
pace of environmental protection while maintaining the Nation's 
economic competitiveness.

                       BUDGET REQUEST: PRINCIPLES

    As we prepare for tomorrow's environmental challenges, EPA 
will meet the President's charge by focusing on three 
principles:
    The first is results and accountability. This budget 
includes three programs that have been delivering some of the 
longest-standing and greatest environmental results. The 
President requested nearly $1.3 billion for the Superfund 
Program, a $17 million increase over last year's enacted 
budget, $841.5 million for the Drinking Water State Revolving 
Fund, and $688 million for the Clean Water State Revolving 
Fund.
    In order to continue our Nation's steady march toward 
cleaner air, the President requested $932 million for the Clean 
Air and Global Climate Change Goal. In order to meet this goal, 
last year EPA implemented a suite of clean air rules that 
dramatically cuts power plant emissions of soot, smog, and 
mercury in the Eastern United States. However, we continue to 
believe that Clear Skies, a permanent legislative approach, is 
a more efficient, effective, and long-term mechanism to provide 
certainty and achieve large-scale emission reductions across 
the country.
    The second principle is innovation and collaboration. The 
Great Lakes Program is an excellent example of regional and 
international collaboration. In his budget President Bush 
requested over $70 million to clean up and protect the lakes. 
This includes $50 million for the Great Lakes Legacy Act 
cleanup program, which is an increase of over $20 million over 
last year's enacted budget.
    As the President said, breakthroughs in new technology are 
powering our economy and dramatically improving our environment 
and nowhere is this more apparent than in the administration's 
investment in energy innovation. EPA plays a substantial role 
in this effort through the implementation of the Energy Policy 
Act of 2005. The President's budget includes over $100 million, 
to support the development and implementation of the renewable 
fuel standard rulemaking to strengthen preventive measures for 
underground storage tanks and to support the Agency's National 
Clean Diesel Campaign to reduce diesel emissions from existing 
engines.
    The third principle to accelerate environmental protection 
is best available science. The President shares this commitment 
to sound science. His budget request includes $7 million for a 
Water Infrastructure Initiative, as well as additional funding 
to study manufactured nanomaterials, for the Integrated Risk 
Information System, and for the Computational Toxicology 
Research Program.
    Before I conclude, I need to mention EPA's responsibility 
in supporting the President's top priority: The safety and 
security of the American people. For 2007, the President 
requested $184 million for EPA's Homeland Security efforts, 
which is an increase of $55 million over last year's enacted 
budget. By reaffirming our commitment to results and 
accountability, innovation and collaboration, and the best 
available science, the funding in the President's budget will 
allow EPA to meet the environmental challenges of the 21st 
century and beyond.

                           PREPARED STATEMENT

    Last, I also want to thank the committee for significantly 
reducing the amount and number of congressional projects 
included in this year's appropriation bill.
    That concludes my prepared statement, Mr. Chairman. I would 
be pleased to answer any questions you may have.
    Thank you.
    [The statement follows:]

                Prepared Statement of Stephen L. Johnson

    Mr. Chairman and Members of the Committee, I am pleased to be here 
today to discuss the fiscal year 2007 budget request for the 
Environmental Protection Agency (EPA). The President's fiscal year 2007 
budget request of $7.3 billion reflects the Administration's strong 
commitment to carrying out EPA's mission of protecting human health and 
the environment. The request demonstrates the President's continued 
commitment to providing the resources needed to address our Nation's 
highest priorities which include: continued support of homeland 
security, fighting the war on terror, and sustaining the recovery of 
our economy. At the same time, there is a need for discipline in our 
federal budget, and this request shows such discipline through its 
results-oriented approach.
    EPA's programs can work even more efficiently than they do today. 
We expect to be held accountable for spending the taxpayers' money more 
efficiently and effectively every year. To assist you, the 
Administration launched ExpectMore.gov, a website that provides candid 
information about programs that are successful and programs that fall 
short, and in both situations, what they are doing to improve their 
performance next year. I encourage the members of this Committee and 
those interested in our programs to visit ExpectMore.gov, see how we 
are doing, and hold us accountable for improving.
    This fiscal year 2007 budget incorporates the Administration's 
vision of a results-oriented and market-based approach to environmental 
protection while focusing on achieving measurable outcomes in the form 
of cleaner air, purer water, and better protected land. EPA will 
implement an environmental philosophy based on three principles in 
order to better fulfill its mission of protecting human health and the 
environment.
    The first principle is results and accountability. EPA must focus 
on environmental outcomes, not environmental programs. This budget 
request includes three programs that have delivered some of the 
greatest environmental successes. These three programs include: 
Superfund, for which $1.3 billion is requested, the Drinking Water 
State Revolving Fund for which $841.5 million is requested, and the 
Clean Water State Revolving Fund, for which $688 million is requested.
    The second principle is innovation and collaboration. This means 
the Agency will focus on collaborating with its state, tribal, local, 
and private enterprise partners. EPA will work with these partners to 
promote market-based strategies, advance stewardship opportunities, and 
invest in new and innovative technologies. The Great Lakes Program is 
an example of regional and international cooperation, and this budget 
requests over $70 million to clean and protect the Great Lakes. This 
request includes $50 million for the Great Lakes Legacy Act program, a 
$20 million increase, which will accelerate the cleanup of contaminated 
sediment that has accumulated for many years in the Great Lakes as a 
result of historical industrial sources.
    Using the best available science is the third principle which the 
Agency will utilize to fulfill its mission. Strong science and data are 
integral to making decisions about environmental issues. This budget 
supports the use of science and data by requesting $7 million for a 
Water Infrastructure initiative. These funds will provide EPA with the 
resources needed to conduct a major research effort which will reduce 
the cost of operation, maintenance, and replacement of old drinking and 
wastewater systems. The focus on the best science is also demonstrated 
in the request to fund the study of nanomaterials and their effect on 
human health. Additionally, our request supports the Integrated Risk 
Information System and Computational Toxicology programs to promote the 
best available science.
    Mr. Chairman, the Agency has accomplished a great deal in its past 
efforts to clean the water, improve our air quality, and protect our 
lands. The environmental challenges that we face are enormously complex 
and expensive but by relying upon what we have learned from our 
accomplishments and by incorporating the Administration's environmental 
philosophy with its focus on results, I believe we can meet the 
challenges that lie ahead in an efficient and productive manner.

                           HOMELAND SECURITY

    Homeland Security is a top priority for the Administration and an 
integral component of this budget. For fiscal year 2007, the President 
requests $184 million for Homeland Security. This is an increase of $55 
million over fiscal year 2006 enacted levels. EPA plays a leading role 
in protecting U.S. citizens and the environment from the effects of 
attacks that release chemical, biological, or radiological agents. 
Following the cleanup and decontamination efforts of 2001, EPA has 
focused on ensuring we are prepared to detect and recover quickly from 
deliberate incidents. The emphasis for fiscal year 2007 is on a few key 
areas: decontamination of threat agents, ensuring trained personnel and 
standardized lab capabilities to be called upon in the event of an 
emergency, and working with the drinking water utilities to protect our 
water supplies.
    Secure drinking water supplies are imperative and this budget 
requests $42 million for improved water security including the 
WaterSentinel pilot program. The WaterSentinel pilot program 
demonstrates how EPA has a critical role in protecting the citizens of 
this Nation. This program is designed to monitor and help secure the 
Nation's drinking water infrastructure and will provide early warning 
of intentional drinking water contamination. WaterSentinel consists of 
enhanced physical security monitoring, water quality monitoring, 
routine and triggered sampling of high priority contaminants, public 
health surveillance, and consumer complaint surveillance. In fiscal 
year 2007, EPA will establish, in selected cities, additional pilot 
contamination warning systems with water utilities through increased 
water monitoring and other surveillance. The addition of water 
utilities in fiscal year 2007 will allow for more comprehensive and 
diverse testing of contaminant warning systems. By the end of fiscal 
year 2007, EPA expects to begin disseminating information learned from 
the pilots to other water utilities.
    Clean Air and Global Climate Change
    The fiscal year 2007 President's Budget requests $932 million for 
the Clean Air and Global Climate Change goal. EPA implements this goal 
through its national and regional programs which are designed to 
provide healthier air for all Americans and protect the stratospheric 
ozone layer while also minimizing the risks from radiation releases, 
reducing greenhouse gas intensity, and enhancing science and research. 
In order to carry out its responsibilities, EPA utilizes programs that 
include many common elements, including: setting risk-based priorities; 
facilitating regulatory reform and market-based approaches; partnering 
with state, Tribal, and local governments, non-governmental 
organizations, and industry; promoting energy efficiency; and utilizing 
sound science.
    In March 2005, EPA issued the Clean Air Interstate Rule (CAIR), 
which will reduce power plant emissions of sulfur dioxide and nitrogen 
oxides in 28 eastern states and the District of Columbia by 70 percent 
and more than 60 percent respectively from 2003 levels when fully 
implemented. This will go a long way to help many areas attain the fine 
particle standards and the ozone standards. We will continue to move 
forward with implementation of this and our other clean air rules in 
fiscal year 2007. However, we have received 14 Petitions for Review and 
12 Petitions for Reconsideration for the 2005 Clean Air Interstate 
Rule. EPA has also received two administrative stay requests (1 has 
been denied, 1 is pending); two judicial stay motions have been filed 
(both have been denied). While we are confident that we will prevail in 
the litigation concerning CAIR, there is always some uncertainty 
regarding the outcome of any litigation. We would much prefer to reduce 
emissions from power plants with the President's Clear Skies 
legislation. The authority provided by the Clean Air Act to put CAIR in 
place is limited. Regulations do not provide enough certainty--that is 
why the President has been urging Congress to pass a permanent, nation-
wide solution.
    EPA's Climate Protection Programs continue to assist in reaching 
the President's goal of reducing greenhouse gas intensity by 18 percent 
by the year 2012. The United States has joined five other countries 
(Australia, China, India, Japan, and the Republic of Korea) in the 
Asia-Pacific Partnership for Clean Development and Climate. In 2007, 
EPA requests $5 million to support this partnership which will focus on 
deploying cleaner technologies in partner countries in order to reduce 
poverty, enhance economic growth, improve energy security, reduce 
pollution, and reduce greenhouse gas intensity.
    This fiscal year 2007 budget request includes $50 million for the 
new Diesel Emission Reduction Grants Program authorized by the 2005 
Energy Policy Act. The program will provide grants for projects that 
reduce diesel emissions from existing engines by using cleaner fuels, 
retrofitting them with emissions reduction technology, or replacing 
them with newer, less-polluting engines.
    Clean and Safe Water
    The fiscal year 2007 President's Budget requests $2.7 billion to 
implement the Clean and Safe Water goal through programs designed to 
improve the quality of surface water and drinking water. EPA will 
continue to work with its state, Tribal, and local partners to achieve 
measurable improvements to the quality and safety of the Nation's 
drinking water supplies as well as the conditions of rivers, lakes, and 
coastal waters.
    Also in fiscal year 2007, EPA will continue to work with states and 
tribes on implementing core Clean Water programs, including innovations 
that apply programs on a watershed basis. Water quality monitoring is a 
top priority in protecting and improving water quality and will provide 
the scientifically defensible water quality data that is necessary to 
defend our Nation's waters. Additionally, the Agency will support the 
protection and restoration of wetlands through its own programs such as 
Section 319 and State Revolving Fund, as well as other Federal programs 
such as those administered by Fish and Wildlife Service.
    The Budget also continues the Administration's commitments to the 
Clean Water and Drinking Water State Revolving Funds (SRFs). The Budget 
provides $688 million for the Clean Water SRF, keeping the program on 
track to meet the cumulative capitalization commitment of $6.8 billion 
for 2004-2011. This funding level will allow the Clean Water SRF to 
provide $3.4 billion in loans annually, even after Federal 
capitalization ends, and will ensure communities have access to capital 
for their wastewater infrastructure needs.
    The Budget proposes $841.5 million for the Drinking Water State 
Revolving Fund, a $4 million increase over the 2006 enacted level. This 
request keeps the administration's commitment to provide sufficient 
capitalization grants to allow the Drinking Water SRF to provide $1.2 
billion annually, even after Federal capitalization ends.

                   LAND PRESERVATION AND RESTORATION

    The Agency's fiscal year 2007 budget request to Congress implements 
the Land Preservation and Restoration goal through EPA's land program 
activities which promote the following themes: Revitalization, 
Recycling, Waste Minimization, and Energy Recovery; Emergency, 
Preparedness and Response, and Homeland Security.
    In fiscal year 2007, this goal will include new responsibilities as 
EPA takes on an important role in implementing the Energy Policy Act of 
2005 and it is reflected in the 2007 budget request. This budget 
includes $38 million for State and Tribal Assistance Grants to support 
EPA's underground storage tank (UST) program. This is a $26 million 
increase over fiscal year 2006 enacted levels. The UST program will 
continue working with states to implement the base UST program as well 
as the new provisions of the EPAct. The EPAct provisions focus on 
preventing future releases from USTs and include inspections, operator 
training, delivery prohibition, secondary containment, and financial 
responsibility.
    Revitalized land that was once contaminated can be used in many 
proactive ways, including creation of public parks, the restoration of 
ecological systems, the establishment of multi-purpose developments, 
and the establishment of new businesses. EPA uses its cleanup programs 
(including Superfund, RCRA, Corrective Action, Brownfields, Federal 
Facilities, and Underground Storage Tanks) to facilitate the cleanup 
and revitalization of contaminated properties. In fiscal year 2007, the 
Agency will continue to promote the minimization of waste. EPA's 
municipal solid waste program will implement a set of coordinated 
strategies, including source reduction (also called waste prevention), 
recycling (including composting), combustion with energy recovery, and 
landfilling. The Agency will work with other Federal Agencies within 
the National Response System to respond to incidents which involve 
accidental or intentional releases of harmful substances and oil.
    Enforcement activities are a significant component of the Land 
Preservation and Restoration goal which support the Agency's ability to 
clean up the majority of the most hazardous sites in the Nation. 
Enforcement allows the Agency to collect funding from Potentially 
Responsible Parties (PRPs) to finance site-specific cleanup. These 
accounts segregate site-specific funds obtained from responsible 
parties that complete settlement agreements with EPA. The Agency will 
continue to encourage the establishment and use of these Special 
Accounts within the Superfund Trust Fund in order to finance cleanups. 
These funds create an incentive for other PRPs to perform cleanup work 
they might not otherwise be willing to perform and the result is that 
the Agency can clean up more sites and preserve appropriated Trust Fund 
dollars for sites without viable PRPs.

                   HEALTHY COMMUNITIES AND ECOSYSTEMS

    In fiscal year 2007, EPA's Budget carries out the Healthy 
Communities and Ecosystems goal via a combination of regulatory, 
voluntary, and incentive-based programs. A key component of the Healthy 
Communities and Ecosystems goal is to reduce risks to human health and 
the environment through community and geographically-based programs. 
Some of these community and geographically-based programs include: 
Brownfields, Wetlands Protection, and programs that concentrate on our 
nation's large bodies of water such as the Great Lakes, Gulf of Mexico, 
and Chesapeake Bay.
    Community and Geographically-based programs comprise one of the 
most important components of the Healthy Communities and Ecosystems 
goal. In fiscal year 2007, the Agency requests $163 million for the 
Brownfields program to restore abandoned contaminated properties. This 
is a slight increase over the fiscal year 2006 enacted level for 
Brownfields. The Chesapeake Bay program also supports the Healthy 
Communities and Ecosystems goal. This program protects the Bay which 
needs improved water quality, overall protection, and restoration. This 
budget requests $26 million for cleaning up and protecting the 
Chesapeake Bay. This request is $4 million over the fiscal year 2006 
enacted level. Community Action for a Renewed Environment (CARE) is 
another program which is vital to achieving the goal of Healthy 
Communities and Ecosystems. This program offers many communities the 
opportunity to improve their environment through voluntary actions.
    Another major focus of the Healthy Communities and Ecosystems goal 
is identifying, assessing, and reducing the risks from chemicals and 
pesticides. In fiscal year 2007, EPA will continue identifying and 
assessing potential risks from pesticides. In addition, EPA will set 
priorities for addressing pesticide and chemical risks, strategize for 
reducing such risks, and promote innovative and alternative measures of 
pest control. Also related to reducing pesticide and chemical risk, EPA 
will continue its Homeland Security activities which focus on 
identifying and reviewing proposed pesticides for use against pathogens 
of greatest concern for crops, animals, and humans in advance of their 
potential introduction. EPA will work closely with other Federal 
agencies and industry in order to carry out these activities.

                COMPLIANCE AND ENVIRONMENTAL STEWARDSHIP

    EPA's fiscal year 2007 Budget Request of $540 million for the 
enforcement program helps realize the Compliance and Environmental 
Stewardship goal through programs that monitor and promote enforcement 
and compliance with environmental laws and policies. In fiscal year 
2007, EPA will continue with its strong commitment to compliance and 
enforcement through collaborating with its state, Tribal, and local 
government partners. The Agency also will support stewardship through 
direct programs, collaboration and grants for pollution prevention, 
pesticide and toxic substance enforcement, environmental information, 
and creation of an environmental presence in Indian Country.
    Compliance assistance and enforcement are critical components of 
the Compliance and Environmental Stewardship goal and EPA supports 
these components by assuring requirements are clearly understood and by 
assisting industry in identifying cost-effective compliance options. In 
fiscal year 2007, EPA will use a two-part approach in ensuring 
compliance assistance and enforcement. First, EPA will help clarify 
environmental laws and regulations for regulated communities. The 
second step is for the Agency to reduce noncompliance through 
inspections, monitoring, and via enforcement when needed.
    In fiscal year 2007, EPA also will focus on promotion of 
Environmental Stewardship. Environmental Stewardship is a concept that 
seeks more than just minimal compliance with environmental regulations. 
Instead, it promotes voluntary environmental protection strategies in 
which states, Tribes, communities, and businesses are invited to 
participate. EPA will promulgate stewardship by educating, providing 
incentives, tools and technical assistance to states, Tribes, 
communities, and businesses. EPA will implement a performance-oriented 
regulatory system that allows flexible strategies to achieve measurable 
results.
    In fiscal year 2007 EPA will continue to work with industrial 
sectors to set pollution reduction goals, provide tools and technical 
assistance, and identify innovative strategies to reduce risks. In the 
tribal GAP program, the Agency will support approximately 517 federally 
recognized Tribes in assessing environmental conditions on their lands 
and building environmental programs tailored to their needs.
    Also in fiscal year 2007, the agency will continue to fortify the 
Environmental Information Exchange Network (Exchange Network). In 
fiscal year 2007, EPA, states, Tribes, and territories will continue to 
re-engineer data systems so that information previously not available 
or not easily available can be exchanged using common data standards. 
By the end of 2007 all fifty states and approximately ten Tribes will 
have established nodes on the Exchange Network and will be mapping data 
for sharing with partners and submission to EPA.
    In 2007, EPA also will continue its work with Performance Track by 
recognizing and rewarding private and public facilities that 
demonstrate strong environmental performance, beyond current 
requirements. To provide incentives to business to participate, EPA 
continues to implement and develop new regulatory incentives at the 
state level. It will support and leverage state environmental 
leadership programs by aligning Performance Track with at least 20 
state programs and double the measurable environmental improvements 
achieved to date.
    In summary, this budget will enable us to carry out the goals and 
objectives as set forth in our strategic plan, to meet challenges 
through innovative and collaborative efforts with our state, tribal, 
and private entity partners, and to focus on accountability and results 
in order to maximize environmental benefits.
    The requested resources will help us better understand and solve 
environmental problems using the best available science and data, and 
support the President's focus on the importance of Homeland Security 
while carrying out EPA's mission.

                   CLEAN WATER INFRASTRUCTURE FUNDING

    Senator Burns. Well, I thank you.
    Let's just--let's talk about this clean water 
infrastructure funding, Mr. Administrator. How does the--I'd 
just like to--for you to justify reducing that fund, at Clean 
Water SRF. In face of the above-mentioned funding estimates, we 
know we're about--over $500 billion over the next 20 years. We 
have no chance at all of ever making a dent in that unless we 
fully fund what we're supposed to be doing now. Now, we can 
shift funds, and we can delay funds, and something like that. 
The bad thing here are construction costs. Everything costs 
more every year. And so, we slip back and back. It's not that 
you cut those funds, but you increase the costs for the next 
time around.
    So, I--give us an idea. Where does local and rural areas go 
for seed funding on any project that they might have? Where do 
they go? Where are we headed? I guess that's my question.
    Mr. Johnson. Well, Mr. Chairman, as you correctly point 
out, the needs of our Nation are great when it comes to water 
infrastructure. I believe we have laid out an approach that 
attacks that really massive problem in a number ways. One is 
that the $688 million that the President is requesting in this 
budget fulfills his commitment to have the Revolving Loan Fund 
for the Clean Water--State Revolving Loan--revolve at $3.4 
billion. So, the amount of money that's in our budget that he's 
requesting fulfills that obligation to achieve that kind of 
revolving. But that is not the only approach.
    Second is that we need to be looking at innovative 
technologies, because, whether it is a large system or a small 
system, we need to be investing in research and development. In 
fact, the President includes $7 million to look at new 
technologies. In fact, we've already evaluated 14 technologies 
that will be very helpful in helping small systems achieve 
various water compliance issues.
    Then the third is a multi-pronged approach that looks at 
this problem of ensuring that there is full-cost pricing. We 
need to be looking at this in a watershed approach, because 
what we do in a watershed in one area affects the others. We 
also need to be looking at conservation. What are things that 
we can do to help reduce the burden? Then, lastly, better 
management. There are opportunities across the Nation where 
systems are doing a much better job than others. We want to try 
to take those lessons learned and have them apply. So, we're 
really looking at it in a multi-pronged way.

                               TECHNOLOGY

    Senator Burns. You know, one of these days--I know you 
don't get into this area, but most of us in the West do--and 
you have nothing to do with it, but--I don't know how 
technologies is going to--is going to help new--help a shovel 
out.
    I mean, this is--what we're talking about here, if you've 
got--if you've got a virtual shovel that's--that shovels 
virtual dirt to put a virtual pipeline in the ground, that's 
still not going to get any water on the other end. So, I don't 
know what new technologies does for you.
    But I would suggest, when you're in California the next 
time, you give me a call, and we'll go down, and we'll show you 
a--an irrigation area that's in the west-end farmers. You know, 
they lost about 10 percent of their water--irrigation water. 
They also lost about 8 percent of their land that they couldn't 
irrigate anymore. When you've got a little area down there that 
produces a $3.5 billion of agricultural products in that 
system, and then you want to cut them back, does not make a lot 
of sense to me. But they went through a series of underground 
laterals--mains and laterals on the irrigation system. Figure 
they saved about 20 percent of their water that they were 
losing just to evaporation. They--and that--I think that is a 
model that we--we've got to follow, one of these days, about 
how we do things. So, if you ever get down in California, you 
want to go and have them give you a tour of what they did 
there.
    Mr. Johnson. Thank you.
    Senator Burns. Environmentally, is to get away from big 
sprinklers, and went to drip technology that Montana State 
worked out with--with Israel, by the way--it is something to 
behold. So, I think we've got to look around outside this 
thing.

                           HOMELAND SECURITY

    Homeland security. The administration has requested $184 
million for homeland security activities, $55 million over 
2006. The largest increases, for a water security program, 
included $30.5 million in Water Sentinel pilot projects. Give 
me an idea of what these projects are, and what criteria the 
Agency is using to select those projects, and also how those 
projects will be evaluated.
    Mr. Johnson. Well, thank you very much, Mr. Chairman.
    The Water Sentinel Program is intended to address the 
homeland security issue with our Nation's water systems. It is 
a series of pilot studies that would look for contaminants of 
concern, real-time contaminants of concern--weapons of mass 
destruction, if you will. We are looking at technologies that 
would enable water systems to be able to detect a variety of 
these kinds of agents.
    With regard to the specifics, I would like to inform you, 
Mr. Chairman and members of the committee, that we are 
arranging a secure briefing, a classified briefing for you, so 
that you can have the details of the numbers of pilots, the 
rationale for this. I would encourage--and, in fact, urge--all 
the members to attend, because this is an area of critical 
need.
    Senator Burns. I would suggest that we do that. I'd try to 
round up all the committee to do that, just members only----
    Mr. Johnson. Yes.
    Senator Burns [continuing]. If that's the way you want to 
go. We can get that done for you. We can facilitate that.
    Mr. Johnson. I'd appreciate that.
    Senator Burns. Because I happen to believe that you're on 
the right track. Give us some idea on what you're going to do, 
where you're going to do it, and how you evaluate it. That's 
what I'm looking for now.
    Let's--I'm going to turn to my friend from Colorado, 
Senator Allard, who just arrived. Have you got a statement, 
Senator? If so, you can put it in the record. It's your turn to 
ask questions.
    Senator Allard. Well, Mr. Chairman, thank you. I do have a 
statement. I would ask unanimous consent that it be made a part 
of the record.
    Senator Burns. Without objection.
    [The statement follows:]

               Prepared Statement of Senator Wayne Allard

    Mr. Chairman, thank you for holding this hearing today. The EPA 
oversees the many environmental regulations and requirements, some of 
which can be far reaching and have a disproportionate effect on small 
communities. I think that this fact makes it very important that 
Congress exercises close oversight of the Agency and its funding.
    I cannot stress enough the need to utilize sound, peer-reviewed 
science when making decisions about increasing regulations. I also 
believe that the cost-benefit analysis of regulations should be given 
more weight in many situations.
    Finally, I remain concerned about the climate within the EPA. I 
mentioned this last year at our EPA budget oversight hearing, and it 
seems that little--if anything--has changed since that hearing. From 
communications I have had with constituents, it seems that EPA no 
longer has an interest in assisting communities with complying with 
regulations set by EPA, but rather just in heavy-handed enforcement. 
Often small communities do not have the expertise to develop a plan to 
meet new regulations. The EPA should be willing to help those 
communities, rather than refuse assistance until they are able to take 
enforcement action.
    I look forward to working with the Administrator, and my colleagues 
in the Senate, to see that EPA is able to reasonably carry out their 
mission; and working with the Committee to ensure that activities at 
the Environmental Protection Agency are funded in a manner that is 
responsible and sufficient.

                         SUMMITVILLE MINE SITE

    Senator Allard. I understand you're sort of streamlining 
this hearing, because we're going to have votes coming on, and 
we're going to have--so, I'll try not to abuse my privileges 
here, as far as time is concerned.
    Senator Burns. It doesn't bruise very easily.
    Senator Allard. Yeah. I am interested, also, in some 
continued monitoring of water systems, particularly in some of 
those areas where our risks may very high. But, aside from 
that, I want to talk a little bit about the Summitville Mine 
site there in Colorado. I think you're aware of the cleanup 
there, what's been going on.
    The question I have--can you tell me what level of priority 
this is for the Environmental Protection Agency, and kind of 
give me an update on the cleanup work at the site, where we are 
right now?
    Mr. Johnson. Senator, it is a priority area for us. The 
site is a result of sodium cyanide that was used to extract 
metals, and the metal leachate that is getting into and causing 
the problems. We've been working very closely with the Colorado 
Department of Health and Environment, and looking at it from a 
number of ways. One is, the existing water treatment plant is 
going to need some improvements. We're working with them both 
on the design and how that would be improved. In addition, 
there is work that's currently ongoing to consider the design 
of a new plant. In fact, some of the design work has already 
now been done, and we are now actively looking at that. We're 
working very closely with Colorado to determine what are those 
best remedies, given the contamination of the mine.
    Senator Allard. Now, in those--in working with Colorado----
    Mr. Johnson. Yes.
    Senator Allard [continuing]. I assume you've made some 
commitments as to what you plan on doing, and that Colorado's 
made some commitments on what they plan on doing.
    Mr. Johnson. We're----
    Senator Allard. How are you on your commitments?
    Mr. Johnson. As far as I know we're on track. The funds 
that are available to work on this are through a settlement 
account.
    Senator Allard. Yes.
    Mr. Johnson. Through the EPA Summitville Settlement 
Account. There are monies that are there to help this work. My 
assessment is that, we're still very much trying to assess what 
is the appropriate technology and the most cost-effective 
technology to address this.

                        EPA COLORADO COMMITMENTS

    Senator Allard. So, as far as you know, you've met all the 
commitments to Colorado, at this point?
    Mr. Johnson. As far as I know, yes. If you're aware of 
something we haven't----
    Senator Allard. Well----
    Mr. Johnson [continuing]. I'd be happy to follow up.
    Senator Allard. Well, I've been asked to ask that question. 
I think there might be some concern there as to whether all the 
commitments have been made. So, maybe we need to visit----
    Mr. Johnson. Okay.
    Senator Allard [continuing]. A little bit about that.
    Mr. Johnson. I would be happy to.
    [The information follows:]

                          Colorado Commitments

    The 2001 Record of Decision (ROD) envisioned construction of a two-
stage water treatment plant to remove copper and aluminum. EPA 
committed to funding a water treatment plant. EPA and the State of 
Colorado agree that the State aluminum water quality standard should be 
revised so that a one-stage plant would meet water quality 
requirements. The State staff is preparing to ask the State Water 
Quality Control Board to make the needed revision to the aluminum water 
quality standard for the Alamosa River.
    The State has the lead for managing the construction of the 
treatment plant. At issue is whether a one or two stage treatment plant 
will be funded. An alternate proposal is to provide added building 
space for a second stage should the Colorado Water Quality Control 
Board choose to not revise the current water quality standard. This 
option would add more than $1 million to the cost of a one-stage 
treatment plant.
    EPA has offered to waive the aluminum standard under its Superfund 
authority if it is not revised by the State Water Quality Control 
Commissioners. This approach has not been supported by the State. The 
State and EPA have agreed to wait until the Colorado Water Quality 
Control Board meets in 2007 on whether to revise the aluminum water 
quality standard in the Alamosa River to a level attainable with a one-
stage plant.
    EPA and the State continue to fund the on-going operations of the 
existing water treatment plant. EPA and the State are also funding the 
necessary improvements at the existing water treatment plant in order 
to meet OSHA safety requirements.

    Senator Allard. Now, can you provide me with the status of 
the settlement funds that were earmarked for cleanup costs at 
Summitville?
    Mr. Johnson. I don't have that number off the top of my 
head, but I'll be happy to provide it for the record.
    [The information follows:]

             Summitville Mine Site, Settlement Funds Status

    EPA and the State maintain separate settlement fund accounts. EPA's 
settlement balance is approximately $4.6 million. The State of Colorado 
has estimated that it has $8 million in its settlement balance. The 
State is using this funding for site operation and maintenance costs.

    Senator Allard. That's another thing I'll be interested in.
    Mr. Johnson. Okay. All right.
    Senator Allard. I think that there--I mean, it's 
progressing along. My understanding is that now fish are 
beginning to show up in the river below the Summitville. 
Somebody reported that to me----
    Mr. Johnson. Okay. Good.
    Senator Allard [continuing]. Which is the sign that, you 
know, we're at least moving through some recovery there.
    Mr. Johnson. Good.
    Senator Allard. I realize it's a complicated--it's a 
serious problem there, complicated, and has some long-term 
effects that are going to take us a while to work through. I 
just wanted to make sure that continues to be----
    Mr. Johnson. Good.
    Senator Allard [continuing]. An important priority.
    Mr. Johnson. It is, very much. Senator, I might just add, 
although not directly applicable in this situation, what we 
find across the United States is that there are over 500,000 
abandoned mines where there aren't responsible parties, there 
aren't----
    Senator Allard. Yes.
    Mr. Johnson [continuing]. Opportunities----
    Senator Allard. Yeah.

                         GOOD SAMARITAN PROJECT

    Mr. Johnson [continuing]. For settlement accounts, and that 
we have launched a product--or a project administratively with 
Trout Unlimited, called the Good Samaritan Project, where we 
have organizations that want to get in and clean up these mine 
tailing areas, but, for fear of liability, have not----
    Senator Allard. Yes.
    Mr. Johnson [continuing]. For many, many years. So, we 
have----
    Senator Allard. That's the Good Samaritan Law, which----
    Mr. Johnson. We're very interested in and we're moving 
forward administratively, and we'll also be talking with you 
more about the legislation.
    Senator Allard. Yeah, well, I think I have some 
legislation----
    Mr. Johnson. Yes.
    Senator Allard [continuing]. On the Good Samaritan Law----
    Mr. Johnson. Right.
    Senator Allard [continuing]. That we're working on. We're 
trying to get it through committee. I think it's something that 
needs to be dealt with so that individuals can pick up these 
and--like you say, they would like to clean up the environment, 
and they're willing to make some personal commitments to do 
that. So----
    Mr. Johnson. Yes.
    Senator Allard [continuing]. We need to give 'em that 
opportunity without having 'em incur a huge liability that----
    Mr. Johnson. Right.
    Senator Allard [continuing]. Was no fault of their own.
    Mr. Johnson. Exactly.
    Senator Allard. There's a debate about, ``Well, are we 
letting off the big polluters when we do this?'' and all that. 
But my view is that we'd do more good than harm, and that's--we 
simply need to do something in that area, and I'm glad to----
    Mr. Johnson. Yes. Good.
    Senator Allard [continuing]. Hear you state that.
    Mr. Johnson. Thank you.
    Senator Allard. Also, with regard to Summitville, has the 
Agency considered any alternative treatments for the site? 
Could you please update me on the status of any alternatives 
that may be considered?
    Mr. Johnson. There is technology, from an organization 
called Arcadius, that we have seen in a pilot phase, which 
shows some promise. We are encouraging them to submit a more 
fulsome proposal that moves it beyond the pilot stage. We're 
encouraged that, at least in a pilot way, it appears to be a 
workable new technology. We're encouraging them to send us 
something that expands that.
    Senator Allard. Okay. Well, if you'd just get back to my 
office, give us----
    Mr. Johnson. Okay.
    Senator Allard [continuing]. Answer some of these----
    Mr. Johnson. Okay.
    Senator Allard [continuing]. Questions, we brought up and 
kind of visit the staff, we'd appreciate that.
    Mr. Johnson. Sure.
    Senator Allard. And----
    Mr. Johnson. It is my pleasure.
    Senator Allard [continuing]. We want to stay on top of it.
    Thank you, Mr. Chairman.
    [The information follows:]

             Summitville Mine Site, Alternative Treatments

    EPA Region 8 and State of Colorado staff have met with ARCADIS, an 
engineering consulting firm, a number of times over the last twelve 
months, most recently March 6, 2006, to discuss a pilot test to use 
their cleanup technologies at the Summitville Mine Superfund Site.
    On April 21, 2006, ARCADIS submitted a plan to EPA Region 8 and the 
Colorado Department of Public Health and Environment to perform a pilot 
test of their proposed technologies. The pilot test would involve the 
injection of carbon dioxide, a carbon source such as alcohol, as well 
as other nutrients into the primary mine pool in an attempt to reduce 
the generation of acid mine drainage and metals loads.

    Senator Burns. Senator Craig?
    Senator Craig. Mr. Chairman, thank you very much.
    Administrator Johnson, welcome before the committee. A 
couple of questions. Mr. Chairman, I'd ask that my full 
statement be a part of the record. Thank you.
    Senator Burns. Without objection.
    [The statement follows:]

               Prepared Statement of Senator Larry Craig

    Administrator Johnson, thank you for coming today. I have several 
concerns, and I am glad to have this opportunity to share those 
concerns with you and ask you some questions.
    My first concern is the arsenic standard. I, along with many of my 
Western colleagues, have been concerned for some time about the 
tremendous burden this standard is putting on small and medium-sized 
communities. There is not one of these communities that doesn't WANT to 
be in compliance. The issue is they can't get there. They simply can't 
afford it. There are approximately 175 communities that probably do not 
meet the current arsenic standard, which for small communities creates 
some very large problems. For instance, one rural community in my State 
of Idaho that was hit hard by the arsenic standard not only passed an 
expensive bond, but also laid off their only city police officer to try 
to afford to get into compliance. To me, this poses a greater public 
safety risk than the naturally occurring arsenic.
    I have heard rumblings that EPA may propose new internal regulatory 
guidance to allow for affordability criteria as it relates to future 
contaminants. As I understand it, this would give rural communities 
under 10,000 people an option of how they want to address expensive 
contaminant issues without economically crippling the community. While 
arsenic may not be one of the contaminants included in this guidance, 
we have to work harder to find solutions for these communities. The 
situation for some of them is getting desperate.
    I also have some concerns about pesticide application and EPA 
discharge permits. As you know, recent court decisions have 
contradicted long-standing federal policy that the application of 
agricultural and other pesticides in compliance with labeling 
requirements do not require National Pollutant Discharge Elimination 
System (NPDES) permits. This has created ambiguity for pesticide users 
like farmers, fire fighters, irrigators, and mosquito abatement 
districts who must have access to the tools necessary to manage pests 
and maintain public health.
    Gem County, Idaho is currently defending itself against a court 
case alleging that even though they applied a pesticide as directed by 
the EPA-approved label, the County has to have a NPDES permit. This is 
a major problem, and one that has the potential to set a wrongful 
precedent unless the EPA takes more decisive and effective action to 
protect your own rule.
    I believe the EPA-proposed rule you issued in February of 2005 is a 
step in the right direction, but it is not fully consistent with the 
Agency's longstanding policy that if you apply a pesticide in 
accordance with its label, you are not required to have an NPDES 
permit. Your proposed rule does not protect users from citizen's 
lawsuits when they are simply performing long-practiced, approved and 
heavily regulated pest management and public health protection 
activities. We have an established process that tests chemicals 
extensively and regulates their use. Requiring NPDES permits for 
application is redundant, unnecessary, and ill-suited to agriculture. 
It is an attempt to redefine current law through lawsuits, rather than 
the legislative process, and we must say enough is enough.
    I have co-sponsored legislation, S.1269, with EPW Chairman Inhofe 
that would provide further clarity by ensuring that NPDES permits would 
not be required if a pesticide is used to, near or over a waterway in 
accordance with its labeling and other federal regulations. But this 
legislation shouldn't even be necessary.
    My third concern is regarding air emissions from confined cattle 
feed operations (CAFOs) and Superfund. You know I have been working to 
clarify the applicability of the Superfund and EPCRA programs to 
agriculture, particularly as it relates to livestock operations. To 
think that a dairy operation or a beef cattle feedlot should be 
regulated identically to a weapons dump, an abandoned mining site, or 
an oil spill is simply ridiculous.
    Yet again, we have environmental lawsuits attempting to tell 
Congress what WE intended to do when passing the Superfund Act in 1980. 
The EPA is currently implementing the ``Air Consent Agreement,'' where 
a small sampling of producers have voluntarily agreed to have the EPA 
gather air emissions data on their farms to more intelligently 
understand how fugitive air emissions should (or should not be) 
regulated by the Superfund and EPCRA.
    I believe that agriculture was never intended to be regulated just 
like mines, weapons dumps, etc. And lawsuits like these are really a 
backdoor attempt to shut down the livestock industry in this country.
    I will address these issues further in my questions, and look 
forward to working with you on these problems. Thank you.

                           ARSENIC STANDARDS

    Senator Craig. My first inquiry is about arsenic standards. 
I've heard rumblings that EPA may propose new internal 
regulatory guidance to allow for affordable criteria as it 
relates to future contaminants. As I understand it, this would 
give rural communities, under 10,000 people, an option of how 
they would address expensive contaminant issues without 
economically crippling their communities. In other words, 
that's the general concept.
    In Idaho--and Idaho is not alone in this, because of 
western geology--the arsenic standard has caused considerable 
problems in small-to medium-sized communities. There are 
approximately 175 communities that probably do not meet current 
arsenic standards, which, for some small communities, creates 
huge problems. One community, their entire community budget, or 
city budget, would be committed to that, alone, even though 
they've been drinking that water for 100 years.
    For instance, one of our rural communities is--was hit hard 
by the arsenic standard, not only passed an expensive bond, but 
also laid off their entire city police force--or city police 
officer--no, their only city police officer--I guess that's the 
way I should word it--which is their entire police force--to 
try to afford the compliance. To me, this poses, I think, a 
greater public risk than the issue of arsenic, based on 
historic records.
    If, in fact, EPA is planning on this new regulatory 
guidance, will arsenic be included as a contaminant under the 
affordability criteria? And will these communities get a 
waiver? Or, if arsenic is not, why?
    Mr. Johnson. Well, Senator, you've asked a number of 
questions. Let me try to work----
    Senator Craig. Have at it.
    Mr. Johnson [continuing]. My way through.
    First, the arsenic standard, as you correctly point out, is 
a new standard, a health protective standard of 10 parts per 
billion. We are aware that for some of the small and rural 
communities, there are challenges in meeting that. We've been 
working to address the challenges by both technology and our 
research and development. As I mentioned a little while ago, 
we've evaluated or are now evaluating 14 technologies that deal 
with arsenic contamination. We're continuing to evaluate new 
technologies specific to arsenic.
    Second is, with regard to waivers or exemptions, the 
standard is the standard. What we do have under the Safe 
Drinking Water Act is the authority, working with the State, to 
extend the compliance period. Of all the systems that I and Ben 
Grumbles, the head of our water program, has been working with, 
the issue is not whether you're going to comply or not, the 
issue is, how do we get them into compliance, and over what 
time period? So, our focus has been providing compliance 
assistance.

                    BILATERAL COMPLIANCE AGREEMENTS

    We've been encouraging an approach called Bilateral 
Compliance Agreements between the State and the utility to work 
out the specifics so that the small water systems can get in 
compliance, but it may take them more time.
    With regard to the affordability----
    Senator Craig. Let's talk----
    Mr. Johnson. Okay.
    Senator Craig [continuing]. About compliance.
    Mr. Johnson. Okay.
    Senator Craig. In other words, if there is a good-faith 
effort and clearly a path forward is being demonstrated by the 
community in relation to the State and EPA, I mean, is that 
part of all of that picture----
    Mr. Johnson. That is part of all----
    Senator Craig [continuing]. Timelines?
    Mr. Johnson [continuing]. Of that picture, yes, sir. That 
is part of that picture.
    Senator Craig. Okay.
    Mr. Johnson. We've been working, I think, very 
constructively to try to work through that.
    Second, with regard to the affordability guidance the 
Agency has the methodology that the Agency has used for years 
to determine whether something is affordable or not? We have 
recently released draft guidance. That draft guidance is for 
prospective contaminants, with the exception of, as we note, in 
the proposed guidance document, that it also applies to the 
disinfectant byproducts rule that I had signed just a couple of 
months ago.
    Senator Craig. But does not include----
    Mr. Johnson. But----
    Senator Craig [continuing]. Arsenic.
    Mr. Johnson. It does not include arsenic.
    Senator Craig. Okay.
    Mr. Johnson. That's correct.
    Senator Craig. Okay. Well, I know you're working at 
flexibility. That's obviously appreciated. In some instances, I 
suspect--and I'm glad you're looking out at new technology--
there is a rush toward that approach by many in the private 
sector to see if we can't get technology down to an affordable, 
workable, sustainable way. You know, there isn't any community 
out there that doesn't want to comply.
    Mr. Johnson. Right.
    Senator Craig. There is the reality of compliance, some of 
these small communities I've just mentioned. So, you lay off 
your police force, one or two.
    Mr. Johnson. Right. Yes.
    Senator Craig. That community is simply not going to tax 
itself beyond its capability, especially when it's drinking 
water it's drunk for so long and has found no side effects, 
that they know of, anyway.
    Why is the EPA not more actively defending their own rules 
and authority on the pesticide application and EPA discharge 
permit issues?
    Mr. Johnson. Well, I believe that we are. In fact----
    Senator Craig. So, it's in the eye of the beholder.
    Mr. Johnson. So--perhaps it's in the eye of the beholder--
--
    Senator Craig. Your eye tells me what?
    Mr. Johnson. Well, my eye tells me that we recognize that 
this is an issue of uncertainty between the pesticides law, 
FIFRA, and the Clean Water Act. What we did was issue some 
guidance to say, if, in fact, a pesticide is used in accordance 
with its label directions, then an NPDS permit is not required. 
We are in the process of going through the rulemaking process 
to make sure that is embodied in regulation.
    Senator Craig. Okay.
    Mr. Johnson. We're very active. We have guidance. We're 
working on the regulation----
    Senator Craig. Well, we'll stay tuned.
    Mr. Johnson. So, that's for my eye.
    Senator Craig. Okay. We'll stay tuned with you. It's an----
    Mr. Johnson. Okay, good.
    Senator Craig [continuing]. Important issue to be resolved, 
and effectively, responsibly--second-guessing doesn't work here 
very well for any of the parties involved. Trying to 
understand----
    Mr. Johnson. Right.
    Senator Craig [continuing]. Where they need to be.
    Last, Mr. Chairman--Administrator Johnson, since I've 
become engaged in the issue of confined herds, large herd 
operations, air emissions, and----
    Mr. Johnson. Yes.
    Senator Craig [continuing]. Superfund issues, as it relates 
to large dairies and feed lots, EPA has not been consistent in 
their position, in my opinion, on this issue. Could you give me 
the status of the Air Consent Agreement, and talk about what 
direction you see this going?

                   COMBINED ANIMAL FEEDING OPERATION

    Mr. Johnson. Yes, sir. The Combined Animal Feeding 
Operation, CAFO, as it's known. The issue of air emissions was 
one that there was great uncertainty in the science. The 
National Academy of Sciences, in a report, noted that we needed 
additional science, that there wasn't science to really 
discern, ``Is there a problem? Isn't there a problem? What is 
there, what isn't there?'' Their strong recommendation was that 
you needed to do research to understand what is going on.
    Well, the research that we need is from those CAFOs. So, we 
entered into consent agreements with a number of operations, 
now well over 2,000 operations. As part of that agreement, 
these CAFOs are collecting and monitoring information, per our 
design, which will then be brought together. In the next year 
or so, as we gather all that information, then we'll be able to 
actually assess the science, and then say, ``Is there a 
problem?'' If there is, here are the steps that need to be 
taken to address it. If there isn't a problem, then so be it. 
This CAFO agreement is, we believe, a very effective means of 
gathering the information so that we can base our decisions on 
sound science.
    Senator Craig. What kind of timelines do you have as it 
relates to gathering information and then what might follow 
from that information?
    [The information follows:]

                            CAFO Agreements

    EPA expects the nationwide AFO air emissions monitoring study to 
begin later this year and it will last two years. This two-year 
timeframe is necessary for the scientific purpose of allowing the 
monitoring study to take into account variable factors such as weather 
throughout the different seasons and between the different years. Data 
will start to become available to EPA the first year of the study, and 
will undergo extensive validation and quality assurance by the Agency. 
Data will be published on a rolling basis. No later than 18 months 
following the monitoring study's conclusion, EPA will then publish 
emission-estimating methodologies, also on a rolling basis.

    Mr. Johnson. We are continuing to sign up additional 
farming operations. In fact, the specific number is probably 
close to 2,700 operations, to date. The monitoring is 
beginning. I think it's going to take some 9 months to a year 
to gather the information. Then, once we gather that, it's 
going to take us some time to assess it.
    Senator Craig. It's got to run through a----
    Mr. Johnson. So----
    Senator Craig [continuing]. Variety of seasonal and----
    Mr. Johnson. There are seasonal and geographic dimensions. 
We want to make sure that we do proper peer review. We want to 
do this in an open and transparent way. A lot of people are 
very interested in it. I would be happy to get back to the 
record for you on the specific----
    Senator Craig. Well, I----
    Mr. Johnson [continuing]. Schedule.
    Senator Craig. It is very important to my State, and, 
frankly, it's very important to the future of American 
agriculture, that we get this right and we don't make it 
impossible, at the same time.
    Mr. Johnson. Right.
    Senator Craig. You know, large animal operations have 
impacts, and we all know that. Nobody wants not to do it well.
    Mr. Johnson. Right.
    Senator Craig. We simply need the tools to do it with.
    Mr. Johnson. Right.
    Senator Craig. Thank you.
    Thank you, Mr. Chairman.
    Senator Burns. Senator Dorgan.
    Senator Dorgan. Mr. Johnson, thank you. I'm sorry I was 
delayed at another hearing. But I've looked at your testimony, 
and appreciate your being here.

                    CLEAN WATER STATE REVOLVING FUND

    Let me ask you, first, about the Clean Water State 
Revolving Fund. As you know, EPA's Gap Analysis shows that 
there's about $120 billion gap between what we're currently 
spending and what we need to spend on the infrastructure. The 
administration has requested $687 million. That's $700 million 
below the 2004 level, $400 million beneath the 2005 level, $200 
million beneath the 2006 level. Let me ask, if I can, why the 
22-percent cut in this account?
    Mr. Johnson. Senator, you're absolutely correct when you 
say that the needs are great. The needs assessments are 
literally in the hundreds of billions of dollars for both clean 
water as well as the drinking water. The President's budget 
reflects what the President's commitment was for the Clean 
Water State Revolving Loan Fund. That commitment was that, over 
a period of time, the loan fund would revolve at $3.4 billion. 
The monies that have been requested fulfill that presidential 
commitment to have the loan fund revolve at that $3.4 billion. 
But that's only a piece of the pie.
    The other piece is that we really need to be working on 
trying to help water systems, particularly the small water 
systems. We believe that there are four pillars to that to 
address that. One is conservation. Another is full-cost 
pricing; ratepayers have a responsibility, as well. Third is, 
we need to be looking at this problem not just facility by 
facility, but by watershed because that's where the 
contaminants and the issues and the availability all need to be 
considered. Then, last, the issue of better management is the 
fourth pillar.
    We know of the importance of better management from other 
systems. The chairman just mentioned some things on water lines 
of one particular area in California. What we're trying to do 
is gather those good experiences, these success stories, that 
could be used by other systems.
    The last piece included in the President's budget is $7 
million for innovative technologies. We know that the need is 
great. We're seeing innovative technologies that could address 
some of the issues. So, for example, rather than replacing a 
pipe, having to dig up the pipe, we're seeing some liner 
technology that might be a more cost-effective and better 
option for dealing with some of the issues. So----
    Senator Dorgan. Mr. Johnson, what was the recommendation 
from your agency with respect to this year's budget, as you 
sent it up the line? Can you tell me that, for this account?
    Mr. Johnson. I don't----
    Senator Dorgan. Did your agency----
    Mr. Johnson. I don't----
    Senator Dorgan [continuing]. Recommend----
    Mr. Johnson. I don't----
    Senator Dorgan [continuing]. A 22-percent cut?
    Mr. Johnson. I don't remember what the discussions were 
within the administration. My goal was to make sure that we 
honored the President's commitment. This budget reflects that.
    Senator Dorgan. All of the--most of the pillars he 
described, however, are made more difficult by these budget 
cuts, I would expect. I mean, we--your own gap analysis would 
suggest that your budget should reflect the ability to respond 
to that. But I under---it's really not your budget. I was 
trying to see if I could figure out what you had requested, but 
I understand it's OMB and now the President's budget. You're 
duty bound to come here and put on a suit and be aggressively 
supportive of it. And I respect that view.

                      CENTER FOR AIR TOXIC METALS

    Let me just say, the President's budget zeros out $33 
million that Congress provided through the Science and 
Technology account for specific research projects. Two million 
dollars of that went to the Center for Air Toxic Metals at the 
University of North Dakota. That goes back to 1992. The center 
is to develop information on trace elements and--so that 
pollution prevention strategies could be developed and 
implemented and so on. There's no discussion anywhere in this 
budget about why the administration chose to zero out that $33 
million of research projects. There's no information about the 
specific projects that were funded previously and would now be 
defunded. Can you tell me what the----
    Mr. Johnson. Well, I'd have to look at the $33 million. The 
specific project referred to is, as are a number of projects, 
congressional special projects, called earmarks. The 
administration doesn't carry over those earmarks as part of the 
next budget. In fact, as you know, I've been at EPA 25 years, 
and no administration carries over those earmarks. So----
    Senator Dorgan. I understand that, but normally----
    Mr. Johnson [continuing]. But on the specific one--I'm not 
sure about the $33 million. I'd be happy to get back to you, 
for the record.
    Senator Dorgan. Yeah. I mean, that's the Science and 
Technology account. In fact, this particular center, the Center 
for Air Toxic Metals, was actually created by the EPA. So--at 
any rate, if you would get back to me on that, I'd appreciate 
it.
    Mr. Johnson. I'd be happy to.
    [The information follows:]

    The Center for Air Toxic Metals (CATM) at the Energy and 
Environment Research Center (EERC) of the University of North Dakota 
(UND) was established in 1992 to perform research on toxic trace 
element emissions. EPA will support the center in 2006 through a $2 
million congressional add-on to the President's fiscal year 2006 budget 
request--part of a larger set of 37 congressional additions totaling 
$33,275,000 for EPA's science and technology account. EPA expects 
fiscal year 2006 funding for CATM will support research and development 
concerning mercury's transformation in coal-combustion flue gases; 
sampling and analytical methods; control technologies; and mercury's 
interaction with selenium. Consistent with Agency policy and prior 
president budget requests, the fiscal year 2007 budget does not include 
funding for congressional add-ons provided in previous fiscal years.

                        PESTICIDE HARMONIZATION

    Senator Dorgan. Pesticide harmonization under NAFTA, we 
passed NAFTA--of course, I didn't support it--but on the floor 
of the Senate and during debate, the contention was, we're 
going to harmonize pesticides between the two countries. We 
just had a study by North Dakota State University that shows 
that if North Dakota consumers--I should say farm producers--
paid the same price as the Canadian producers just across the 
border, for virtually identical chemicals, they'd pay $41 
million less. They expect, and I would have expected, that we 
would have harmonized, because that's what NAFTA promised. And 
yet, there's been almost no effort at all to harmonize these 
chemicals so that you could do joint labels and farmers across 
the border could essentially buy the chemicals and bring them 
back if they're the identical chemical, or virtually identical.
    So, tell me, where are we on the harmonization?
    Mr. Johnson. That is an issue that you and I have been 
talking about for some time. I am pleased to report that, on 
the harmonization front, that we have made great strides. We do 
not control, and have no authority to control, prices, and our 
focus is on human health and environmental assessment, and 
making sure that the products that end up on the market comply 
with those health and environmental protective statutes.
    What we have done as part of the NAFTA agreement is work on 
pesticide harmonization. In fact, we have now, between Canada 
and the United States, jointly registered 20 new active 
ingredients. We have been working cooperatively with our 
Canadian counterparts in trying to sort through all the data 
requirements, making sure that they are not only consistent, 
but to do everything we could to have joint registrations. As I 
said, I'm pleased to report that we have actually jointly 
registered 20 new active ingredients.
    Senator Dorgan. I'm aware of----
    Mr. Johnson. Clearly, there are opportunities to do more, 
more work to support harmonization.
    Senator Dorgan. Can you give me a timeline with respect to 
your agency's work on this, so we can expect a time when the 
requirements of NAFTA will be met, generally? If you would give 
me a report on that.
    Mr. Johnson. I will.
    [The information follows:]

                        Pesticide Harmonization

    While EPA's existing programs are fully consistent with our 
obligations under the NAFTA, we are continuing to work toward the NAFTA 
goal of harmonization of regulatory standards whenever possible, 
without lowering the level of health and environmental protection 
afforded under U.S. laws. We meet formally with our NAFTA counterparts 
at least two times a year (the next meeting is set for May 24, 2006) 
and maintain frequent contacts with our Pest Management Regulatory 
Agency (PMRA) colleagues. The EPA does not have authority over 
pesticide pricing, but we are continuing to work with state officials, 
stakeholders, and our international trading partners to explore 
remedies under existing authorities and through cooperative approaches. 
EPA has been working to break down trade barriers and promote a level 
playing field through our harmonization efforts under the NAFTA 
Technical Working Group on Pesticides (TWG). Under the TWG, the United 
States and Canada have established a successful Joint Review Program to 
share the work of evaluating pesticides being marketed in both 
countries. To date, over 20 new pesticide products have been 
simultaneously registered under the Joint Review program. While the 
United States and Canada have been open to NAFTA labels, and actively 
encouraged pesticide producers to submit candidates, agricultural 
pesticide producers have been reluctant to apply for NAFTA labels. We 
have put the structure in place but in order for the process to work, 
pesticide producers will need to participate. EPA, Canada, and Mexico 
have initiated a stakeholder process involving representatives from 
government, industry, and growers, to explore solutions related to 
pesticide joint labeling as a way of addressing price disparity. EPA 
and its Canadian counterpart agency plan to hold a meeting with these 
stakeholders later this year. EPA remains committed to providing 
growers access to pesticide products and continuing our pesticide 
harmonization efforts with Canada and other international partners 
which have already led to more consistent regulatory and scientific 
requirements, risk assessment procedures, and improved regulatory 
decision-making. EPA will also continue to provide technical assistance 
to support Congress, as necessary.

                               RED RIVER

    Senator Dorgan. One other question. Today's not a good day 
to raise this, because the Red River is running north, and it's 
flooding the entire Red River Valley, and we're trying to run 
it through three communities, with dikes. It's the third 
highest flood in the history of the Red, so it's not a good 
time for me to raise questions about the need to replenish the 
water system of the Red River.
    But, as you know, the Red River does run dry. When the Red 
River dries up, as it has done in the past, it'll destroy the 
economies of Fargo and Grand Forks and so on. So, we've had 
this work going on, under the Dakota Water Resources Act, that 
would evaluate the ability to have an assured supply of water 
for the Red River Valley. The Bureau of Reclamation has been 
doing its studies. It is now almost done. It'll be done this 
December, 4 years behind the date in which it was supposed to 
have been done, but, nonetheless, you know, 4 years later, 
it'll be done. Now they're indicating that this is the Draft 
Environmental Impact Statement for the Bureau of Studies. EPA 
plays a part in that. The comment period was now extended by 
the Bureau, after consultation with the EPA. The EPA was not 
yet ready to sign off on the project, and asked for an 
extension because you want to compile a record.
    I can well understand wanting to compile a record, but I 
want you to understand, the Bureau has fallen behind 4 years. 
Our hope would be that we--you know, with 4 years' delay, we 
could certainly have a record out there someplace that somebody 
could glean and use and begin to digest. I hope that, if you 
have some issues, that you will understand the urgency that we 
have, and that, because it's 4 years delayed, you'll work with 
us and with the Bureau to try to move expeditiously on this.
    Mr. Johnson. You have my commitment.
    Senator Dorgan. All right. Again, I say, it's not a great 
time to raise the question of needing water in the river, 
because we've got way too much at the moment. We're trying to 
send it to Winnipeg, to get it through our cities, so that 
Winnipeg gets all of it.
    But, at any rate, let me thank you for your work.

                    CLEAN WATER STATE REVOLVING FUND

    Senator Dorgan. But, you know, I'm concerned about the 22-
percent cut in the Clean Water State Revolving Fund. I don't 
think that helps our communities. I think that hurts us as 
we're trying to address these issues. I recognize, as I said 
before, you come here supporting a budget that may or may not 
be your recommendations, but, nonetheless, you're part of the 
team, and you've got to support this. I happen to think that 
it's going to shortchange the communities. It's not going to 
address the gap that we know exists, of 120 billion. It's going 
to leave us farther back than we should have been. But, you 
know, we've got serious--we've kind of driven in a ditch in 
fiscal policy here, for a lot of reasons, and we've got serious 
problems, so I'm not particularly surprised by all these 
recommendations, but I think the recommendations hurt, rather 
than help.
    Senator Burns. We always have a good, friendly competition 
between North Dakota and Montana. We can never figure out how 
the North Dakotans can flood out and burn out in the same day.
    That was a pretty good trick you pulled that time, you 
know. It really was.
    I've got a couple of questions left, also, Mr. Johnson. The 
Libby asbestos site, as I mentioned in my opening statement, 
could you please give us a status report on the Record of 
Decision, if we could get that done by May the 1st, if we can. 
I think we should talk about that.

                     LIBBY SITE RECORD OF DECISION

    Mr. Johnson. Well, yes, sir. On the Libby site, we 
appreciate all the work and your assistance and leadership in 
this area. We've actually cleaned up 595 properties. This year 
our plan is to clean up an additional 200. We have, in the 
Libby area, about 1,300 properties, and then, in the Troy area, 
probably 200 to 300. We have been working on a number of 
issues, and trying to work through the Libby, as well as the 
Record of Decision. I would love to have a few moments to talk 
to you about our status on the Record of Decision. We're going 
to be a little bit late on that date, but we're working on it.
    Senator Burns. We would----
    Mr. Johnson. I----
    Senator Burns. We would like to have a visit, if we 
possibly could----
    Mr. Johnson. Okay.
    Senator Burns [continuing]. Because folks up there are very 
nervous about that.
    We've already talked about feed lots and confined feeding. 
Eighty million dollars was rescinded from the Agency's budget 
in fiscal year 2006 in order--in an effort to offset the need 
for new appropriations. Give us an update on the Agency's 
progress of identifying that $80 million, expired grants, 
contracts, and agreements.
    Mr. Johnson. We've made very good progress. The GAO was 
technically correct, and we have gone back and looked at, and 
continue to evaluate, our contracts and grants. I expect that 
within the next few weeks, that we'll actually have what our 
plan is. It has taken a lot of very extensive work to go back 
and look through each of these agreements, both from a legal 
and from a financial standpoint. And so, as I said, we'll have 
our roadmap in the next few weeks, and then we'll meet our 
obligation. Obviously, we can't do the necessary steps on these 
contracts and grants until the September timeframe, but we're 
on target, and look forward to sharing that with you.
    Senator Burns. You might bring us up to date on your Diesel 
Emission Reduction Program. Give me a thumbnail report on that.

                   DIESEL EMISSIONS REDUCTION PROGRAM

    Mr. Johnson. Yes, sir. It's an exciting program. We've made 
great strides. In the President's budget, there is $49.5 
million requested. Based on our experience to date, from funds 
that have been used to both replace engines and to retrofit 
engines, we expect to leverage not only that $50 million of 
Federal taxpayer dollars, but another $100 million, to get $150 
million invested in diesel emission reductions. What that 
equates to, in terms of environmental benefit, is about 7,000 
tons of reduction of particulate matter. If you want to look at 
that in terms of health benefits, that's about $2 billion in 
health benefits. So, it's a wise investment, both from an 
environmental standpoint, and certainly from a public----
    Senator Burns. Tell me about----
    Mr. Johnson [continuing]. Health standpoint.
    Senator Burns. Have you done any work on any--any research 
on the use of turbochargers on diesel engines? They tell me--
there's some work being done, and I'm wondering if you have 
monitored any of that work or----
    Mr. Johnson. Personally, I'm not aware of any----
    Senator Burns. Okay.
    Mr. Johnson [continuing]. But I'd be happy to check----
    Senator Burns. Okay.
    Mr. Johnson [continuing]. With our engineers.
    [The information follows:]

                 Use of Turbochargers on Diesel Engines

    The EPA's Clean Diesel Combustion (``CDC'') technology provides a 
lower-cost approach for making fuel-efficient diesel engines clean. 
EPA's CDC strategy, controlling the diesel engine's NO<INF>X</INF> 
emissions to EPA's Tier 2 levels without NO<INF>X</INF> aftertreatment, 
increases the turbocharger's performance requirements to levels which 
are beyond levels required in the market place today.
    On April 18, 2006, EPA Administrator Steve Johnson joined 
BorgWarner, Inc's Chairman and CEO Tim Manganello to celebrate a joint 
Government-Industry collaboration in this area of turbocharger 
technology. Through this collaboration, EPA invented turbocharger 
technologies are being evaluated and commercialized by BorgWarner (U.S. 
based corporation, with turbocharger manufacturing in Asheville, NC).
    Under the partnership, EPA is providing prototype turbochargers and 
proprietary insight to improve turbocharger efficiency at low 
temperature. BorgWarner has supplied modified production hardware to 
accelerate the commercialization and technology transfer process, as 
well as to support EPA's CDC industry partnerships with Ford and 
International Truck to continue their commercialization evaluations of 
CDC. A fact sheet and Press Releases from BorgWarner and EPA are also 
attached.
    This EPA-Industry partnership in the area of diesel engine 
combustion and turbochargers is one of several focused on enabling 
near-term energy conservation through the use of clean automotive 
technologies. EPA's innovative program has 35 engine and hybrid 
drivetrain related patents with 20 more underway.
                                 ______
                                 
           Clean Automotive Technology--Innovation That Works

        EPA AND BORGWARNER TO DEVELOP FUEL EFFICIENT TECHNOLOGY

    A new technology partnership known as a Cooperative Research and 
Development Agreement (CRADA) between the U.S. Environmental Protection 
Agency (EPA) and BorgWarner, Inc. was announced on April 18, 2006. The 
partnership will evaluate and determine the commercial viability of 
newly advanced turbochargers, air management, and sensors for use with 
diesel and high-efficiency gasoline engines.
    The initial efforts of the CRADA calls for EPA and BorgWarner to 
evaluate the technical and market potential of advanced turbocharger 
technologies designed to preserve and extend the diesel engine's 
efficiency, as these engines achieve the next generation of diesel 
emissions requirements.
    The technical challenge has been to make these high-efficiency 
engines clean and cost-effective, while maintaining or improving 
efficiency. These advanced turbocharging technologies are an extremely 
attractive part of a suite of technologies that enable both diesel and 
high-efficiency gasoline engines to reduce U.S. dependence on foreign 
oil and to reduce emission of greenhouse gases.
    Through the partnership, EPA and BorgWarner will evaluate these 
advanced automotive components that can allow the automotive and 
trucking industry to utilize EPA's Clean Diesel Combustion (CDC), as 
well as Homogeneous Charge-Compression Ignition (HCCI) gasoline 
combustion technologies.
    Broad industry interest in EPA's Clean Diesel Combustion has 
accelerated the need for more advanced air-boosting systems than are 
used in today's diesel.
    In order to meet the progressive requirements for advanced 
turbocharging and boosting systems, BorgWarner and EPA have been 
working jointly on innovative systems for use with CDC and other clean 
combustion engine technologies.
    These advanced air management systems provide the technical 
approaches and hardware necessary for ultra-clean diesel engines and 
gasoline engines to become as efficient as diesel engines.
    The advanced enabling technologies, along with CDC and other clean 
high-efficiency gasoline combustion technologies are being created in 
EPA's Ann Arbor Laboratory. BorgWarner and EPA will work to quickly 
evaluate and develop these concepts into commercially viable advanced 
turbocharger, air management, and sensor hardware.
    Successful commercialization of these advanced components will 
result in the use of more diesel and high-efficiency gasoline vehicles 
in the United States--which will:
  --Reduce emissions . . . thereby helping to clean up the environment
  --Save consumers money at the pump . . . by reducing fuel consumption
  --Reduce U.S. dependence on Middle East . . . increasing national 
        security
  --Reduce record U.S. trade deficit . . . keeps money in United 
        States--grows economy
                                 ______
                                 
 Partnership Geared Toward New Technologies to Reduce Fuel Consumption
    Cleaner engines mean cleaner air thanks to a partnership to develop 
advanced automotive components for cleaner, more fuel efficient engines 
and vehicles. The U.S. Environmental Protection Agency and BorgWarner 
will examine the commercial viability of newly advanced turbochargers, 
air management, and electronic sensors for use with clean diesel and 
high efficiency gasoline engines. Commercialization of these 
technologies will result in lower emissions and reduced fuel 
consumption, which in turn saves Americans money at the pump, improves 
environmental protection and lessens dependence on foreign oil.
    ``By advancing the technologies that are good for the environment, 
good for our economy, and good for our energy security, together with 
BorgWarner, EPA is meeting the president's call to get our nation off 
the treadmill of foreign oil dependency,'' said EPA Administrator 
Stephen L. Johnson. ``For the past century, diesel engines have been 
America's economic workhorse--reliable, fuel efficient, and long 
lasting. Through innovations in technology, this economic workhorse is 
expanding into an environmental workhorse.''
    Diesel powered passenger vehicles have significantly better fuel 
economy than their gasoline powered counterparts. Through the 
partnership, BorgWarner will build and evaluate unique turbochargers 
that will help maintain fuel economy in clean diesel combustion 
systems. The company also will develop air management and combustion 
sensor technologies. Partnering with BorgWarner allows this ``made in 
the USA'' technology to also support manufacturing jobs in the United 
States through their turbocharger manufacturing and engineering 
facilities in Asheville, NC.
    The EPA--BorgWarner partnership was established through a 
Cooperative Research and Development Agreement, which is a tool 
Congress established to facilitate technology transfer from National 
Laboratories to industry and the marketplace.
    More information about the partnership and clean fuel efficient 
technology: epa.gov/otaq/technology

                        DIESEL HYBRID TECHNOLOGY

    Mr. Johnson. We've done some very interesting work on 
diesel hybrid technology that uses hydraulic hybrid systems. 
So, instead of using a battery to store the energy that comes 
from braking, EPA's unique patented hybrid system stores the 
energy in a hydraulic system. In fact, we have a partnership 
with UPS where we are demonstrating this technology in their 
delivery trucks. You're going to begin seeing some trucks 
actually being used to deliver packages which have diesel 
hybrid hydraulic technology. The fuel savings for the hydraulic 
hybrid trucks is significant. So, we're very excited about the 
work that we've been doing with the Department of Energy, the 
hydraulic industry, and some of the engine manufacturers, to 
advance these kind of technologies.
    Senator Burns. Good.
    Senator Domenici, thank you for coming this morning.
    Senator Domenici. Who owns that patent? Whose patent is 
that?
    Mr. Johnson. It's actually an EPA patent.
    Senator Domenici. Terrific.
    Mr. Johnson. Researchers from our Ann Arbor, Michigan, 
laboratory are the ones that----
    Senator Domenici. Terrific.
    Mr. Johnson [continuing]. Have the patent.
    Senator Domenici. Are they out there trying to get it into 
the market and--
    Mr. Johnson. Yes. It is actually a joint partnership effort 
with a number of auto and truck manufacturers. UPS is going to 
be the first one in the market with this technology.
    Senator Domenici. Now, how do you come about that? Do you 
have a laboratory that does that work?
    Mr. Johnson. Yes, we have a laboratory in Ann Arbor, 
Michigan, that invented the technology and is part of the 
technology transfer partnerships helping to move this 
technology to the market. This is the same laboratory that 
deals with, you know, the window stickers that everybody sees 
on the windows of new cars.
    Senator Domenici. Yeah.
    Mr. Johnson. This is the laboratory that actually does the 
emissions and fuel economy testing of new cars to validate and 
verify testing that is done by the automobile manufacturers, so 
that the consumers can know the fuel economy of new vehicles. 
The engineers in this laboratory did the research and 
development of the unique hydraulic hybrid technology.
    Senator Domenici. Interesting.
    Mr. Johnson. Now we have 35 patents granted and 20 underway 
covering engine and hybrid technologies.
    Senator Domenici. Mr. Chairman, I have a lot of issues in 
this appropriations, but I'm only going to deal with a very 
small one that has been befuddling New Mexicans for a long 
time.
    I'm so grateful to you, Mr. Johnson, for helping us on 
arsenic in the small communities. We still are--still can't get 
it worked out with the State of New Mexico. I don't like to get 
you in the middle with the environmental people in the State, 
but I have no alternative. I--you have a different approach 
than they do, and I just must continue to push hard as to why 
they can't see fit to do what you think is possible to help the 
small users, those small arsenic-laden water systems.

                            ARSENIC STANDARD

    First, we want to thank you for the help--you've detailed 
responses to my questions--and your willingness to come and 
personally meet with me and others, and a number of Senators. 
You did that for us. You asked--I asked that the State use the 
minimum documentation necessary to meet your guidance on 
exemption applications--you're aware of that--to implement 
existing State policy and the EPA guidance so that communities 
can receive exemptions from economic hardships, which are--is 
in quotes--that's works of art--and adjust for New Mexico's 
relatively low median household income, and use alternative 
approaches to issuing formal exemptions in order to use the 
full flexibility provided by the EPA to buffer--excuse me--to 
offer bilateral agreements for time extensions for the 
individual water systems that meet general financial or 
concentration criteria. Do you believe that these suggestions 
are permissible under existing regulations? And, if so, do you 
think it justifiable for a State to permit these to be used by 
the water systems in the State?
    Mr. Johnson. Well, Senator, you raise a very important 
issue with regard to the revised arsenic standard. We are very 
supportive of these bilateral compliance agreements between the 
State and the individual utilities. We see that as an effective 
mechanism to provide the necessary window of time so that an 
individual utility can come into compliance with the 10-parts-
per-billion arsenic standard. In all the discussions that I've 
had, it's not been whether they will or will not. Everyone 
wants to come in compliance with that. It's, How do we do that, 
and do we have sufficient time to do that? What we've been 
doing, and, certainly, as an agency, focusing on compliance 
assistance. How can we assist the communities? As I said, the 
bilateral compliance agreement is, we believe, an effective 
mechanism to be able to do that.
    In addition, as I believe I mentioned earlier, we have been 
actively continuing to research new technologies that help----
    Senator Domenici. Yes.
    Mr. Johnson [continuing]. That particularly--help all 
communities, but particularly help small communities.
    Senator Domenici. But we're not there yet.
    Mr. Johnson. Right.
    Senator Domenici [continuing]. Some of them aren't right 
behind the eight ball.
    Mr. Johnson. Well, we're----
    Senator Domenici. We're almost there, but the State is 
saying, ``Do it,'' and you're on the outside, saying, ``Maybe 
you can get extensions, and here are some ways to do it,'' if 
I----
    Mr. Johnson. And----
    Senator Domenici [continuing]. If I read it right.
    Mr. Johnson. We're committed to work with our State 
partners to help provide whatever we can do. The flexibility is 
given. As you appropriately point out, there are flexibilities 
within the statute so that--again, they need to meet the 
standard, but flexibilities in time, so that they have an 
opportunity to meet it.
    Senator Domenici. Now, you're going to continue to 
expeditious and fair reevaluation, as I understand it, and, if 
appropriate, re-promulgation of arsenic standards, in light of 
the new scientific--any new scientific data, as--that would 
indicate that the science relating to arsenic might be changed. 
You're still working in that arena. It's a--day-by-day, 
scientists are still working at that. Is that correct?
    Mr. Johnson. Well, it's true. It's true for a number of 
chemicals. As an agency, we always need to be open to what the 
new science tells us. Whether it's arsenic or some other 
contaminant of concern, we have to be open to that. So, both 
for arsenic, as well as a number of other compounds, as the 
science continues to evolve, as additional research, then we, 
as an agency, need to be open.

                   INTEGRATED RISK INFORMATION SYSTEM

    We do have, as part of the President's budget, a $9 million 
request to support IRIS, which is our Integrated Risk 
Information System, which is the principal system and the 
support of the scientists, to make sure that we're keeping up 
with the evolving science for contaminants.
    So, yes, sir.
    Senator Domenici. What is that called?
    Mr. Johnson. The Integrated Risk Information System, also 
called IRIS----
    Senator Domenici. IRIS.
    Mr. Johnson.--I-R-I-S.
    Senator Domenici. Okay.
    Mr. Johnson. Thank you.
    Senator Domenici. You're part of that team. You have $9 
million to spend in that activity?
    Mr. Johnson. That's correct.
    Senator Domenici. I want to thank you, personally, for what 
you do in your job. You don't get--people don't know what kind 
of job you have. I knew your predecessor very well, Paul 
Gilman. He's--he was--worked for me for a long time. I guess 
you know that.
    Mr. Johnson. Yes. Well, thank you, sir.
    Senator Domenici. Thank you.

                            ARSENIC STANDARD

    Thank you, Mr. Chairman.
    Senator Burns. Yes, sir.
    Senator Allard?
    Senator Allard. Well, I--you're going to get a little bit 
on arsenic from me, too.
    I mean, all----
    Senator Burns. We've all got it out there.
    Senator Allard [continuing]. We all have this arsenic 
concern. What is the--strictly from a health risk standpoint--
I'm not talking about what's in the law, but I'm talking about 
from a health risk standpoint, what is generally the level that 
is acceptable?
    Mr. Johnson. Well, the maximum----
    Senator Allard. It's somewhat higher than what we have in 
law.
    Mr. Johnson. Well, the maximum contaminant level, set at 
10-parts-per-billion, is health protective. I know that the 
National Academy of Sciences and a variety of other people have 
opined on that particular issue. It's not one on which I am 
particularly an expert, myself. Let me--I'll turn to Ben 
Grumbles or--do you have any additional information? Ben 
Grumbles is the head of our Water Program, our Assistant 
Administrator for Water, Senator.
    Senator Allard. Thank you.
    Mr. Grumbles. Senator, I don't have the specifics on the 
science, but, based on the National Academy of Sciences report, 
when the Agency went through the rulemaking process to set the 
MCL and to move from the 50-parts-per-billion, which had been 
the previous standard, down to the 10-parts-per-billion, that, 
based on the science in that report, the Agency went through a 
process where the standard would have been even more stringent 
than the 10-parts-per-billion. It was somewhere in the 5- to 8-
parts-per-billion. The administrator used the flexibility--the 
new flexibility provided in the Safe Drinking Water Act 
amendments of 1996, taking costs into account, and feasibility, 
and ended up with the 10-parts-per-billion standard, which is 
the current standard. So----
    Senator Allard. Set by, basically, the Congress--isn't that 
correct?
    Mr. Grumbles. Well, the----
    Senator Allard. Isn't that set in----
    Mr. Grumbles [continuing]. The Congress didn't specify the 
10-parts-per-billion, but the Congress provided for a process 
to go through for setting a standard, and the Congress did 
direct that the Agency set a standard.
    Senator Allard. Well, you know, I was always under the 
understanding that that 10-parts-per-billion was a much lower 
level than what historically has been accepted as a level where 
you would impact a life-threatening situation, as far as the 
human population is concerned. Now, there's--if you talk about 
arsenic levels, and you want to talk about other parts of the 
environment--you know, fish or birds or something--they might 
be much more sensitive to levels. But I was trying to get out 
of you about where the human risk level would be, where we have 
the increased. I have always been under the assumption it was 
higher. Now, I was formerly a health officer, and we had a 
higher level than that, that we considered before you actually 
concerned about just health risk. That's the figure I was 
trying to get on the record here. I thought it was somewhere 
around 50-parts-per-billion, which you threw out, which was our 
original standard that we had there.
    Mr. Grumbles. That's correct.
    Senator Allard. I guess if we're trying to protect birds, 
which tend to be very sensitive to these kind of things, and 
fish and all this, then that--maybe we have to go down to 10-
parts-per-billion. I mean, the struggle that we're going with 
is, I have communities in my State, too, that have actually--
they're not as low as the 10-parts-per-billion, but they're--
it's not at a level that creates a health problem for the human 
population in that community. It seems to me--and Senator Craig 
also alluded to this, that people in my community have been 
drinking this water for decades and not had a problem, and all 
of a sudden they're faced with this challenge. It seems to me, 
in setting priorities, we look at the health risk. Right now 
the standard is so tight that this is a naturally occurring 
level in these communities, in that river that they get their 
water out of, is higher than 10-parts-per-billion, and you're 
asking that small community to clean up that river, and they 
didn't cause the problem. It was there by nature. Nature put it 
there.
    It seems to me that if we're going to be providing an 
exemption, and they are a struggling community that doesn't 
have a lot of money, it seems to me that there's--you can 
provide them some economic relief and not create a problem for 
them economically. If that level is higher than 10-parts-per-
billion, and it's been there for hundreds of years, there's 
probably not many birds or fish that are surviving in that area 
right now, anyhow, because they haven't--they wouldn't be able 
to, if that's affecting them, at this particular point.
    Now, those communities where arsenic is added in, because 
of manufacturing operations or--that's a different story. But 
so many of us are at the top of the heap, from Montana and 
Colorado and Idaho. That's just a naturally occurring product--
chemical that you find in drinking water. It's been there for 
hundreds of years. Now these communities are expected--and it 
seems to me that--and I guess my question is, Do we have the--
do you have the flexibility to look at that, in a small 
community that's struggling, and not having any health effects 
to the human population, saying, ``Well, you know, this is a 
community that we can--we don't have to press them so hard to 
get it done, until we get our technology developed?''
    Mr. Grumbles. Senator, a couple of things. When the 10-
parts-per-billion number was established, a definite factor 
involved in that was the threat to public health. Now, as the 
administrator said, we need to continue to review the science 
behind all our regulations. The Water Office doesn't--it's not 
currently on our agenda to revise--to go through a process to 
revise that 10-parts-per-billion standard, but what is 
extremely important is to continue to gather the science, and 
to use the 6-year review process, under the Safe Drinking Water 
Act, for regulations that have been promulgated, to ensure we 
revisit, over time.
    On the extensions part----
    Senator Allard. Let me--if it is a threat to human health, 
why do you let 'em drink it?
    Mr. Grumbles. If it is--I'm sorry--if it----
    Senator Allard. You said the 10-parts-per-billion was a 
threat to human health. So, why do you let 'em drink it?
    Mr. Grumbles. Well, it's a factor. It's one of the factors 
that's involved in the risk, in the health assessment.
    Senator Allard. I----
    Mr. Grumbles. Right.
    Senator Allard. The point is, though, is that 10-parts-per-
billion, on and by itself, it might be----
    Mr. Grumbles. Right.
    Senator Allard [continuing]. A factor in accumulating--a 
number of accumulating factors. But, you know, if this is such 
a public health problem, you shouldn't let 'em ever drink the 
water, even now. You shouldn't ever let 'em drink the water. 
But the point is, is that this has been there for hundreds of 
years. These communities have been suffering--they've been 
dealing with this. There hasn't been an unusual death rate in 
these communities. It seems to me, in trying to provide--you 
know, you can give these communities a little relief, 
economically, and--it seems to me like you can have the science 
to support that, at least historically, and not have to force 
this economic burden on 'em until we get some technology that's 
developed that can actually work on it. It seems to me there's 
some common sense that we're missing here.
    Mr. Grumbles. Your points are well taken. That's one of the 
reasons why the administrator has ensured that our office 
maximize the flexibility that's provided. The statute calls 
them ``exemptions.'' It's really extensions of time to reflect 
the priorities and the economies of scale. That's why we point 
to the fact that small communities can have up to 9 years to 
comply with that standard as we develop more effective 
technologies, and funds are available under the Drinking Water 
State Revolving Fund and other mechanisms to make it 
affordable, over time.
    Senator Allard. Well, in my State, these small communities 
may not be increasing in population. Now, they may be, and may 
be in a better financial position in--9 years from now, but I 
don't see their economic situation improving, frankly. Do you, 
Mr. Chairman? I don't--you know, they're struggling. In some 
cases, they're actually losing population. Being able to deal 
with--and I don't see the cost of developing this technology 
really coming down, unless you really mass produce it.
    It just seems to me that we're really getting ourselves 
into kind of a--an area that we're just going to say to these 
people, ``Well, you know, your community's going to die, and 
the river arsenic level's going to stay the same, because the 
community won't be there to treat the water.'' And it seems to 
me we've lost focus on some common sense here, somehow or the 
other. I'd just encourage you, if you have the latitude there 
in the law, to give this some serious thought.
    Thank you, Mr. Chairman.
    Senator Burns. Thank you, Senator Allard.
    Well, I thank you, Mr. Director, for coming down this 
morning. I have no more questions, although there will be some, 
and then we'll have our visit, and then we'll meet--somewhere, 
we'll meet and iron all of our difficulties out. There's not 
that many of 'em. I will--I want to congratulate you. You've 
done a good job down there, and under very difficult conditions 
and circumstances, because I know what your job would be, and I 
don't think I could keep all those balls in the air if I were 
trying to do it.

                         CONCLUSION OF HEARINGS

    Thank you all very much. The subcommittee will stand in 
recess subject to the call of the Chair.
    [Whereupon, at 10:37 a.m., Thursday, April 6, the hearings 
were concluded, and the subcommittee was recessed, to reconvene 
subject to the call of the Chair.]

</pre></body></html>
